            versight

            eport

        CONTRACTOR SELF-GOVERNANCE PROGRAMS


Report Number D-2000-6-006             April 25, 2000



             Office of the Inspector General
                 Department of Defense
   Additional Copies

   To obtain additional copies of this evaluation report, contact the Secondary
   Reports Distribution Unit of the Audit Followup and Technical Support
   Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the
   Inspector General, DoD Home Page at: www.dodig.osd.mil.

   Suggestions for Future Evaluations

   To suggest ideas for or to request future evaluations, contact the Audit Followup
   and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
   fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-2885

   Defense Hotline

   To report fraud, waste, or abuse, contact the Defense Hotline by calling
   (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
   by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
   The identity of each writer and caller is fully protected.




Acronyms
AICPA                American Institute of Certified Public Accountants
CAS                  Cost Accounting Standard
DCAA                 Defense Contract Audit Agency
DCAM                 DCAA Contract Audit Manual
DCMA                 Defense Contract Management Agency
DFARS                Defense Federal Acquisition Regulation Supplement
DLA                  Defense Logistics Agency
FAR                  Federal Acquisition Regulation
SAS                  Statement on Auditing Standards
                             Office of the Inspector General, DoD
Report No. D-2000-6-006                                                     April 25, 2000
   (Project No. 9OC-9006)

                            Contractor Self-Governance Programs

                                    Executive Summary

Introduction. DoD prime contract awards for more than $25,000 totaled $125 billion during
FY 1999. A properly implemented and effective contractor self-governance program allows
DoD to limit its oversight of the acquisition process. Self-governance, also known as
corporate governance, is a process through which a company takes responsibility for
implementing and enforcing legal and ethical conduct. The key component of self-governance
is a strong and effective ethics program. An ethics program consists of policies and
procedures that define and implement the company’s code of conduct. An ethics program
should establish a culture within a company that promotes prevention, detection, and resolution
of instances of conduct that do not conform to Federal, State, and local law; Federal and DoD
contract regulations; and the company’s own internal ethical and business policies and
procedures.

Evaluation Objectives. The objective of the evaluation was to determine the adequacy of the
Defense Contract Audit Agency reviews and reports on contractor self-governance programs.

Evaluation Results. The Defense Contract Audit Agency performs a review of a contractor’s
ethics program as part of its internal control system review of the control environment and
accounting system. The review did not, however, cover all elements of a management control
system as defined in the Defense Federal Acquisition Regulation Supplement subpart 203.70,
“Contractor Standards of Conduct.” Therefore, although the internal control review covered
the areas noted in the auditing standards, it did not address the additional areas unique to the
DoD business environment. In addition, the audit coordination process between audit offices
cognizant of certain contractor corporate offices and those cognizant of related contractor
entities needed improvement. Finally, improvements could have been made to the testing of
controls for certain audit steps. For details of the evaluation results, see the Finding section of
the report.

Management Actions. In May 1999, the Defense Contract Audit Agency clarified its audit
guidance for testing controls. Management agreed to revise existing audit guidance to ensure
appropriate coverage of the criteria in Defense Federal Acquisition Regulation Supplement
203.7001, “Procedures.” Management will also clarify guidance on audit coordination
between offices cognizant of certain contractor corporate offices and those cognizant of related
contractor entities. These actions are fully responsive to our concerns; therefore, no
recommendations have been made.

Management Comments. We provided a draft of this report on March 13, 2000. Because this
report contains no recommendations, no written comments were required, and none were
received. Therefore, we are publishing this report in final form.
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                          1
     Objectives                                                          3

Finding
     Defense Contract Audit Agency Audit Coverage of Contractor Ethics
       Program                                                           4

Appendixes
     A. Evaluation Process
         Scope                                                           10
         Methodology                                                     10
         Prior Coverage                                                  11
     B. Report Distribution                                              12
Background
    DoD annually conducts business with thousands of prime contractors and
    hundreds of thousands of other suppliers, vendors, and subcontractors. In
    FY 1999, DoD prime contract awards for more than $25,000 totaled
    $125 billion. The top 25 contractors and their subsidiaries received $58 billion,
    or 46.4 percent of all contract awards for more than $25,000. The top 100 DoD
    contractors and their subsidiaries received $75.5 billion, or 60.3 percent of all
    awards, primarily for aircraft, missile/space systems, ships, and electronics and
    communications equipment. For DoD to successfully procure and distribute all
    the goods and services it requires, DoD and its contractors must work
    harmoniously with each other. No matter how many auditors, inspectors,
    investigators, and procurement or contracting officials DoD employs, they
    cannot fully oversee DoD contractors and completely protect DoD and the
    taxpayers’ interests on their own. Although DoD oversight is needed, the
    process can work efficiently and effectively only if contractors implement
    appropriate self-governance activities.

    Self-governance, also known as corporate governance, is a process through
    which a company takes responsibility for implementing and enforcing legal and
    ethical conduct. The key component of self-governance is a strong and effective
    ethics program. An ethics program consists of policies and procedures that
    define and implement the company’s code of conduct. As part of the process, a
    company should also implement compliance monitoring systems. An ethics
    program should establish a culture within a company that promotes prevention,
    detection, and resolution of conduct that does not conform to Federal, State, and
    local law; Federal and DoD contract regulations; and the company’s own
    internal ethical and business policies and procedures.

    Packard Commission. In response to reported DoD contractor abuses, the
    President’s Blue Ribbon Commission on Defense Management (the Packard
    Commission) was formed in 1985 to review DoD industry relations and make
    recommendations for improvements. In 1986, the Packard Commission issued
    its final report, which stated that major improvements in contractor self-
    governance were essential. The report recommended that contractors issue and
    enforce written codes of conduct addressing their unique situations; establish
    procedures for employees to report apparent misconduct directly to senior
    management or the audit committee; provide training to employees on internal
    policies and procedures relating to ethics; establish compliance monitoring
    systems; develop and implement a system of internal controls relating to its
    ethics program; and give the independent audit committee the responsibility for
    overseeing corporate compliance programs.

    Defense Industry Initiatives on Business Ethics and Conduct. In response to
    the Packard Commission report, DoD industry leaders committed themselves to
    adopting and implementing principles of business ethics and conduct that
    address their corporate responsibilities under Federal procurement laws. Many
    large DoD contractors joined and pledged to establish and adhere to written
    codes of ethics; train their employees in these codes; encourage employees to
    report violations of the codes without fear of retribution; monitor compliance
    with laws relating to DoD procurement; adopt procedures for voluntary
    disclosure of violations and take needed corrective actions; participate in an

                                        1
annual best practices forum to share experiences in implementing the initiatives;
and have outside or nonemployee members on their boards of directors review
compliance with the initiatives.

Management Controls for an Ethics Program. The Defense Federal
Acquisition Regulation Supplement (DFARS) subpart 203.70, “Contractor
Standards of Conduct,” provides elements of a system of management controls
for a contractor ethics program. These elements closely parallel those
established by the Defense Industry Initiatives, including:

       •   a written code of business ethics and conduct and an ethics training
           program for all employees;

       •   periodic reviews of company business practices, procedures and
           policies, and internal controls for compliance with standards of
           conduct;

       •   a mechanism such as a hotline for employees to report suspected
           improper conduct, and instructions that encourage employees to
           make such reports;

       •   internal and external audits, as appropriate;

       •   disciplinary action for improper conduct;

       •   timely reporting to appropriate Government officials of any suspected
           or possible violation of law in connection with Government contracts
           or any other irregularities in connection with such contracts; and

       •   full cooperation with any Government agencies responsible for either
           investigation or corrective actions.

If properly implemented, these elements should promote an effective ethics
program.

Contract Awards. Federal Acquisition Regulation (FAR) subpart 9.1,
“Responsible Prospective Contractors,” provides policies, procedures, and
standards for determining whether a prospective contractor is responsible. The
FAR requires contracting officers to determine that prospective contractors are
responsible. One of the seven standards in FAR 9.104-1 for determining
responsibility is that the contractor must have a satisfactory record of integrity
and business ethics.

DoD Use of Contractor Ethics Program Information. Current regulations do
not require other DoD agencies and departments, such as the Defense Contract
Management Agency (DCMA), to routinely review or use information directly
related to a contractor’s ethics program during the contracting process.
Contracting officers can consider relevant information, if available, during
determination of a prospective contractor’s present responsibility or evaluation
of a contractor’s past performance. In the past, the Defense Logistics Agency
(DLA) Office of General Counsel has reviewed some contractor ethics programs
on request. However, the DLA Office of General Counsel headquarters
personnel have not been requested to perform an ethics program review since
1996. In general, DoD officials responsible for establishing settlement
                                      2
     agreements make the most direct use of information about a contractor’s ethics
     program. These officials may review a contractor’s ethics program before and
     after developing a settlement agreement in lieu of suspension or debarment. As
     part of this process, DoD officials may use Defense Contract Audit Agency
     (DCAA) internal control system reports containing information on a contractor’s
     ethics program. Such information may also be helpful if a situation arises
     involving application of the Federal sentencing guidelines.

Objectives
     The overall evaluation objective was to determine the adequacy of the DCAA
     reviews and reports on contractor self-governance programs. Specifically, we
     determined whether DCAA appropriately assessed and reported on the adequacy
     of contractor self-governance programs, such as employee awareness training,
     contractor hotlines, and voluntary disclosures. See Appendix A for a discussion
     of the evaluation scope and methodology and prior coverage.




                                        3
           Defense Contract Audit Agency Audit
           Coverage of Contractor Ethics Program

           Since FY 1995, the DCAA has performed reviews of a contractor’s
           ethics program as part of its internal control system reviews of the
           control environment and accounting system. The review did not,
           however, cover all elements of a management control system as defined
           in the DFARS. Therefore, although the internal control system review
           covered the areas noted in the auditing standards, it did not address the
           additional areas unique to the DoD business environment. The audit
           coordination between DCAA offices cognizant of corporate locations and
           those offices cognizant of associated contractor entities also needed
           improvement. Finally, we identified instances at each of the three
           offices visited where improvements could have been made to the testing
           of internal controls. Procedures for coordinating audit work did not
           adequately address some situations involving corporate offices and
           associated contractor entities. Weaknesses in performing compliance
           testing when needed were caused by unclear audit guidance; however,
           during our evaluation, DCAA management clarified the pertinent
           guidance, resolving the issue. Enhanced audit coverage of a contractor’s
           control environment will lead to improved risk assessments and allow
           DCAA to better allocate its limited audit resources to higher-risk
           contractors with inadequate ethics programs. In addition, by performing
           additional audit work to include the DFARS criteria, DCAA can provide
           information to contracting officers and DoD officials that can be used to
           evaluate a contractor’s past performance and present responsibility. This
           additional information can also be the basis for increasing or decreasing
           Government oversight at a contractor location.

Internal Control System Audit and Risk Assessment
    Government auditing standards require auditors to obtain a sufficient
    understanding of the contractor internal control structure as a basis for assessing
    risk. The auditor uses this assessment of control risk to properly plan the audit
    and to determine the nature, timing, and extent of the testing needed.

    Internal Control System Review Process. In FY 1995, DCAA instituted a
    new process for assessing and documenting the control risk for major
    contractors. The new process incorporated the requirements of the Statement on
    Auditing Standards (SAS) No. 55, “Consideration of the Internal Control
    Structure in a Financial Statement Audit,” for assessing control risks. The
    DCAA determined that 10 common accounting and management systems existed
    in the contract audit environment. The 10 systems selected for standard internal
    control reviews included: control environment and overall accounting controls,
    general electronic data processing system, budget and planning system,
    purchasing system, material system, compensation system, labor system,
    indirect and other direct cost system, billing system, and estimating system.



                                         4
     The DCAA then established standard control objectives and associated audit
     procedures for each system. DCAA included the following factors in its
     assessment of the control environment:

            •   integrity and ethical values,

            •   board of directors or audit committee participation,

            •   organizational structure, and

            •   assignment of authority and responsibility.

SAS No. 78, “Consideration of Internal Control in a Financial
  Statement Audit: An Amendment to SAS No. 55”
     The American Institute of Certified Public Accountants (AICPA) auditing
     standards define internal control as a “process--effected by an entity’s board of
     directors, management, and other personnel designed to provide reasonable
     assurance regarding the achievement of objectives in the following categories:
     (a) reliability of financial reporting, (b) effectiveness and efficiency of
     operations, and (c) compliance with applicable laws and regulations.” Internal
     control consists of the control environment, risk assessment, control activities,
     information and communication, and monitoring.

     Control Environment. The control environment functions as the foundation
     for the other four components. It establishes the organizational tone that
     influences employee values and decisionmaking and provides discipline and
     structure. The auditor should consider the following factors in evaluating an
     entity’s control environment:

            •   integrity and ethical values,

            •   commitment to competence,

            •   board of directors or audit committee participation,

            •   management philosophy and operating style,

            •   organizational structure,

            •   assignment of authority and responsibility, and

            •   human resource policies and practices.

     Other Considerations. The auditor must also assess internal controls in light of
     the entity’s size; organizational and ownership characteristics; the nature of the
     entity’s business; the diversity and complexity of the entity’s operations; the
     entity’s methods of transmitting, processing, maintaining, and accessing
     information; and applicable legal and regulatory requirements.

     An effective control environment should reduce the chance of improper conduct
     by management. Custom, corporate culture, and the corporate governance
                                            5
    system can hinder, but not completely prevent, management from performing
    irregularities. A control environment consisting of an effective board of
    directors, audit committee, and internal audit department should also diminish
    the possibility of irregularities. On the other hand, a control environment or
    corporate culture can minimize the effectiveness of other elements of the
    internal control system. For instance, management incentives based on
    increases in stock value could result in irregularities.

    Tests of Controls. The auditor should consider both the essence of the controls
    and their impact as a whole. Because entities may write policies establishing
    controls but not properly implement the controls, auditors should concentrate on
    understanding the substance of the controls (how they are implemented) versus
    their form (what the policies say).

DCAA Audit Guidance
    Current DCAA audit guidance does not consider all the criteria listed in DFARS
    203.7001 as applicable to a good management control system. The standard
    audit guidance in the “DCAA Contract Audit Manual,” DCAAM 7640.1
    (DCAM) partially addresses five elements and does not cover the remaining two
    elements. By revising the audit guidance to include all the elements listed in the
    DFARS, DCAA internal control reviews and the associated risk assessments
    will provide a more complete picture of a DoD contractor’s control
    environment. Specifically, we asked DCAA management to consider the
    following revisions:

           •   Enhancing guidance, to include requesting a system description from
               the contractor, if available. (DFARS 203.7001[a])

           •   Adding guidance to verify that a contractor’s ethics training program
               covers all employees. (DFARS 203.7001[a][1])

           •   Adding guidance to verify that the contractor has policies and
               procedures in place that require timely reporting to appropriate
               Government officials of any suspected or possible violation of law or
               suspected irregularity in connection with a Government contract.
               (DFARS 203.70001[a][6])

           •   Adding guidance to verify that the contractor has policies and
               procedures that require full cooperation with any Government agency
               responsible for investigations or corrective actions. (DFARS
               203.7001[a][7])

           •   Enhancing or clarifying existing guidance to specify that the auditor
               should determine whether the contractor has an internal reporting
               mechanism, such as a hotline, that employees can use to report
               suspected instances of improper conduct, and whether employees are
               encouraged to do so. (DFARS 203.7001[a][3])

           •   Enhancing or clarifying existing guidance to emphasize that the
               contractor should conduct periodic reviews of company business


                                        6
               practices, procedures, policies, and internal controls for compliance
               with standards of conduct and unique requirements of Government
               contracting. (DFARS 203.7001[a][2])

           •   Clarifying existing guidance of internal audits being performed.
               (DFARS 203.7001[a][4])

           •   Clarifying existing guidance of external reviews being performed
               relating to a contractor’s ethics program instead of the internal
               control system. (DFARS 203.7001[a][4])

           •   Adding an audit step to determine whether the contractor posts the
               DoD Hotline poster if it does not have an internal reporting
               mechanism. (DFARS 203.7001[b])

DCAA Audit Coverage
    Board of Directors, Audit Committee, and Internal Audit Staff. Our review
    found that at one of the three fieldwork locations, the audit coverage of this area
    could be improved with better audit guidance. Existing guidance does not
    differentiate between reviewing the board of directors and the audit committee.
    Each group performs different control activities. In addition, external groups
    such as the AICPA, the Institute of Internal Auditors, and the Securities and
    Exchange Commission have increased their emphasis on the importance of the
    audit committee, providing additional guidelines for audit coverage that may not
    have existed 4 years ago. Therefore, we suggested to DCAA management that
    they consider amending the existing audit guidance as follows:

           •   Revise guidance to provide a separate review of the board of
               directors and the audit committee. The review should concentrate on
               the audit committee and its interaction with the internal audit staff
               because additional emphasis is now being placed in this area. For
               instance, the audit committee should have a charter, be independent
               of company management, and take an active role in overseeing the
               internal audit department. The internal audit manager should meet
               privately at least once a year with the chair of the audit committee to
               discuss any sensitive issues.

           •   Revise coverage of the internal audit staff. The first audit step
               should be to determine whether the internal audit staff performed any
               reviews in this area. If the internal audit staff has not reviewed the
               ethics program, the review of its function should be minimal at this
               time. General areas to be covered should include independence,
               objectivity, scope of work, management of the department, and the
               followup system for audit recommendations.

    DCAA Audit Process. DCAA classifies contractor entities as either major or
    nonmajor, depending on the annual auditable dollar amounts at each entity. For
    instance, a major contractor is one that has $80 million or more in annual
    auditable dollars. The audit risk assessment process for nonmajor contractors is
    different from the process DCAA uses for major contractors. For nonmajor
    contractors, the audit office may use a short form internal control questionnaire

                                         7
    or perform the internal control system review(s) already described. The short
    form internal control questionnaire is primarily an information-gathering device
    with no independent review required. Although the short form requires less
    audit effort, it provides less independently analyzed audit evidence. For many
    nonmajor contractors, the short form is acceptable; however, in certain cases,
    the complete internal control system review is beneficial. One example is when
    a corporate office is classified as nonmajor, but one or more of its divisions,
    subsidiaries, group offices, or other entities is considered a major contractor.
    Auditors located at the corporate office should obtain the information and
    perform the analyses required to properly complete some parts of the internal
    control system review for the control environment and the accompanying risk
    assessment that affects similar reviews for all of the contractor’s entities.

    Evaluation Results. Two locations we reviewed had nonmajor corporate
    offices audited by another DCAA office. One office requested an assist audit
    from the office cognizant of the corporate office. The other office obtained
    relevant information in a less formal manner. The audit office that used an
    informal process did not receive sufficient, relevant information for all of the
    required audit program steps. However, the audit office that requested an assist
    audit received an audit report addressing all of the requested audit program
    steps. The deficiencies identified at both offices in the information received
    were caused by the existing audit program or the method used to coordinate
    information requirements between the two offices. Audit coverage of nonmajor
    corporate entities could be improved by revising existing audit guidance to
    require the DCAA audit office cognizant of the major contractor entity to
    formally request an assist audit from the DCAA office cognizant of the
    nonmajor corporate office. By requesting an assist audit, the DCAA office
    responsible for performing the internal control system review could specify
    exactly the information required from the other DCAA office. This would
    result in a more thorough system review and risk assessment.

    Compliance Testing During the Internal Control Review of the Control
    Environment. We noted improvements that DCAA could make in performing
    compliance testing at all three locations. At each location, DCAA auditors
    could have better executed certain audit steps if compliance testing had been
    done. For instance, at one location, the auditor accepted the contractor-
    provided list of employees who had attended ethics training without checking
    other records such as employee personnel files. The lack of compliance testing
    during certain internal control system reviews was reported previously in
    Evaluation Report No. PO 98-6-016, “Defense Contract Audit Agency Audits
    of Indirect Costs at Major Contractors,” August 8, 1998. DCAA management
    had agreed to clarify guidance dealing with compliance testing (tests of
    controls). On May 10, 1999, DCAA issued Memorandum for Regional
    Directors 99-PIC-057(R) that notified the regional offices of the revisions. In
    the January 2000 DCAM, DCAA revised chapter 5-108, “Test of Controls.”
    We agree with DCAA management that the revision should improve
    implementation of the audit guidance in the field.

Planned Management Actions
    We met with DCAA management to discuss our findings, concerns, and
    potential recommendations. DCAA managers were open to suggestions for

                                        8
   improving its audit guidance. They agreed to revise existing DCAA guidance to
   ensure appropriate coverage of DFARS subpart 203.70. They have also agreed
   to revise the standard audit program to clarify the audit responsibilities for
   DCAA offices cognizant of both nonmajor contractor corporate offices with
   major entities and those offices cognizant of the associated major entities. We
   appreciate the timely action taken by DCAA management to address these
   issues. We consider the planned management actions to be fully responsive to
   our concerns; therefore, no recommendations have been made.

Summary
   Government auditing standards require the auditor to obtain a sufficient
   understanding of the contractor’s internal control structure as a basis for
   assessing audit risk. The auditor is to use this assessment to properly plan the
   audit and determine the nature, timing, and extent of testing needed. A key part
   of this process is the internal control system review and the associated risk
   assessment of the contractor’s overall control environment. The control
   environment for a DoD contractor includes its ethics program and other self-
   governance activities. By enhancing audit coverage to ensure coverage of the
   management control system described in DFARS subpart 203.70, DCAA will
   improve its risk assessment of the control environment. This will allow DCAA
   audit offices to better use their limited audit resources to review high-risk
   contractors. DCAA will also be able to provide more detailed information on a
   contractor’s ethics program in internal control system reports to contracting
   officers. Contracting officers can use this information during the preaward
   process to help evaluate a contractor’s present responsibility or past
   performance. DoD may also be able to use this information to determine the
   appropriate level of DoD oversight needed at a particular contractor location.




                                      9
Appendix A. Evaluation Process

Scope
    The evaluation was reannounced under Project No. 90C-9006 on
    April 29, 1999. During the evaluation, we visited three DCAA audit offices
    responsible for major contractors and one office cognizant of a corporate office.
    We reviewed selected portions of various audit assignments relating to
    contractor ethics programs. We reviewed the following audit assignments and
    related documentation:

           •   reviews of internal controls for the control environment and overall
               accounting system;

           •   internal control audit planning summary forms for the control
               environment and overall accounting system;

           •   Cost Accounting Standard (CAS) audits, including CAS 405,
               “Accounting for Unallowable Costs,” and CAS 418, “Allocation of
               Direct and Indirect Cost”; and

           •   audits and reports on incurred costs.

    We met with the DCMA headquarters representatives to discuss reviews of
    contractors’ ethics programs. We also met with the DLA Office of General
    Counsel to determine their level of involvement and information available on
    contractors’ ethics programs and reviews conducted.

    Our initial objectives included determining how DoD relies on contractor self-
    governance programs such as an ethics program. However, after performing
    fieldwork, we emphasized the DCAA role in evaluating and reporting on a
    contractor’s ethics program. A summary of how DoD uses such information
    can be found in the Background section of this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on data we received from the
    DCAA Agency Management Information System. Based on our previous
    reviews of the accuracy of DCAA data in the Inspector General, DoD,
    Semiannual Report to Congress and the actions DCAA has taken in response to
    conditions identified, we considered the data adequate for our review.

    Universe and Sample Selection. We judgmentally selected three major
    contractor entities, each from a different DCAA region. We visited the three
    audit offices cognizant of the selected contractor entity and either visited or
    requested information from the audit office cognizant of the corporate records.
                                       10
    When selecting a contractor entity to be reviewed, we also considered a
    contractor’s size (dollar amount of contract awards), participation in a voluntary
    disclosure program, and other information on its ethics program.

    We also judgmentally selected, for a limited review, 25 additional major
    contractor entities that had nonmajor corporate offices. We obtained
    information from the DCAA office cognizant of the major contractor entity to
    determine how that office completed the portion of the control environment
    review dealing with corporate office functions.

    We also judgmentally selected 14 SFs 1403, “Preaward Survey of Prospective
    Contractor (General),” from 3 DCMA locations. We reviewed the sampled
    surveys to determine whether the contracting officer had asked for or received
    any information about a contractor’s ethics program.

    Evaluation Type, Dates, and Standards. We performed this evaluation from
    February through October 1999 in accordance with standards issued and
    implemented by the Inspector General, DoD. We did not include tests of the
    management control program(s).

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Logistics Studies Information Exchange
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Legislative Affairs)

Department of the Army
Auditor General, Department of the Army
Commander, United States Legal Services Agency

Department of the Navy
Office of the General Counsel, Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Office of the General Counsel, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform

                                         12
Evaluation Team Members
   This report was prepared by the Deputy Assistant Inspector General for
   Audit Policy and Oversight, Office of the Assistant Inspector General for
   Auditing, DoD.

        Patricia A. Brannin
        Barbara E. Smolenyak
        Wayne C. Berry
        Diane H. Stetler
        Martin I. Gordon
        Ernest R. Taylor
        Susanne B. Allen
